APPENDIX TABLE OF CONTENTS
Opinion of the Sixth Circuit
(March 22, 2019) ................................................. 1a
Order Adopting Report and Recommendation [155];
Overruling Plaintiff’s Objection [156]; and
Granting Plaintiff’s Motion for Attorney Fees
and Costs (May 16, 2018) ................................... 9a
Report and Recommendation of the
Magistrate Judge (December 8, 2017) ............. 26a
Order of the Sixth Circuit Denying Petition for
Rehearing En Banc (May 28, 2019) ................. 40a
Appellants’ Petition for Rehearing En Banc
(April 5, 2019) ................................................... 42a

App.1a
OPINION OF THE SIXTH CIRCUIT
(MARCH 22, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
JOHN HANKINS,

Plaintiff-Appellant,
v.
CITY OF INKSTER, ET AL.,

Defendants,
________________________
BARRY SEIFMAN; BARRY SEIFMAN, P.C.,

Third-Party PlaintiffsAppellees,
RAYMOND GUZALL III;
RAYMOND GUZALL III, P.C.,

Third-Party DefendantsAppellants,

________________________
File Name: 19a0142n.06
Case No. 18-1645

On Appeal from the United States District Court
for the Eastern District of Michigan

App.2a
Before: COLE, Chief Judge; BATCHELDER and
DONALD, Circuit Judges.
PER CURIAM
This appeal stems from a dispute between two
lawyers, formerly partners, over an attorney contingency fee derived from the monetary settlement in
a civil action and the district court’s judgment that
resolved that dispute. We AFFIRM.
I.
In 2009, Barry Seifman and Raymond Guzall were
partners in the law firm of Seifman & Guzall P.C.
(the “Firm”). John Hankins, a fired police officer,
retained the Firm, specifically Guzall, to bring an
employment-discrimination action in federal court
against the City of Inkster and the City’s Police Chief
(“defendants”). The district court scheduled trial for
February 2012.
According to Guzall, in September 2011, Seifman
revealed that he had been engaging in certain illegal
and unethical conduct. This, Guzall claims, required
him to quit the Firm to avoid potential prosecution as
an accomplice. Seifman denies any such misconduct or
wrongdoing.
When Guzall left the Firm in early February 2012,
Hankins chose Guzall to continue his representation
and discharged Seifman and the Firm. A few weeks
later, on the eve of trial, the case settled with the
defendants agreeing to pay Hankins a large monetary
award, one-third of which would go to Guzall under
the contingent fee agreement. But Seifman claimed
that the Firm was entitled to that fee, filed a lien on

App.3a
Hankins’s settlement, and moved to intervene. The
district court granted the motion, ordered the defendants to remit one-third of the settlement amount (i.e.,
the attorney’s contingent-fee amount) to the court for
deposit in an interest-bearing escrow account, and
permitted Seifman to file a third-party complaint
against Hankins, the defendants, and non-party Guzall.
Because the defendants paid the entire settlement
amount and Hankins received his two-thirds, neither
is an interested party at this stage of the case.
Meanwhile, Seifman had sued Guzall in Oakland
County (Mich.) state court in February 2012, claiming
that Guzall had improperly taken client files when
he left. Guzall counter-claimed, accusing Seifman of
numerous criminal and unethical acts. Despite the
stipulated exclusion of the present fee dispute from
that lawsuit, the district court held this case in
abeyance pending the outcome of that action due to
the similarities of the accusations and claims, and
the risk of inconsistent judgments. Eventually, the
state court held that Guzall had improperly taken the
client files but that no other claims by either party
remained because Guzall and Seifman had accepted
their “case evaluations” (alternative-dispute-resolution
decisions). The court closed the case. The Michigan
Court of Appeals affirmed, Seifman v. Guzall, No.
328643, 2017 WL 187989 (Mich. App. Jan. 17, 2017),
and the Michigan Supreme Court denied leave to appeal
further, Seifman v. Guzall, 898 N.W.2d 604 (Mich.
2017). The district court reopened this fee-dispute.
The magistrate judge held a hearing but limited
admissible evidence and argument to six issues: (1)
the Firm’s shareholder agreement between Seifman
and Guzall; (2) when Guzall quit the Firm and when

App.4a
he told Seifman; (3) when and how Hankins told
Seifman and Guzall he was firing the Firm; (4) when
and how Hankins retained Guzall; (5) when and how
Guzall took the Hankins file from the Firm; and (6)
the hours Guzall and Seifman each spent on the case,
their hourly rates, and whether Seifman was entitled to
compensation in quantum meruit. The magistrate judge
expressly and emphatically barred evidence, argument,
or discussion regarding misconduct, specifically Guzall’s
accusations against Seifman: “We will not try the
[Michigan state court] lawsuit de facto in the context
of this evidentiary hearing on attorney fees.” Three
witnesses testified at the hearing (Hankins, Guzall,
and Seifman), and the magistrate judge admitted
several documents, including the shareholder agreement. It was established that, at the time he left,
Guzall was a 25% shareholder in the Firm. Guzall
insisted the shareholder agreement was not a fee
splitting agreement whereas Seifman insisted that it
was.
The magistrate judge issued a Report and Recommendation, which the district court, after thoroughly
addressing and overruling Guzall’s objections to it,
adopted as its final judgment. The district court
determined that Guzall’s individual work on the case
was reasonably quantified at 80 hours, at $300 per
hour, for direct compensation of $24,000. The court
did not award Seifman any direct compensation for
work on the case. Further, the court determined that
the shareholder agreement was effectively a fee-splitting agreement, and the Hankins case was a corporate
asset subject to that contractual agreement, but which
Guzall had taken from the Firm. Therefore, the court
held that Guzall was entitled to 25% of the Hankins

App.5a
contingency fee and the Firm (Seifman) to 75%. The
court rejected Guzall’s claims that Seifman breached
the agreement and committed illegal acts, criticizing
those claims as “improper attempts to circumvent the
findings and conclusions of the Michigan state courts”
and concluding that Guzall “previously agreed to
dispose of those claims in the [Michigan state court]
case.” Guzall had agreed that the district court—rather
than the state court—would decide the contingency-fee
issue and the district court explained that resolving
attorney fee disputes is part of the overall litigation.
Thus, its admission of Seifman into the suit and its
judgment on that issue were not improper. Finally,
the court rejected Guzall’s claims that he was denied
a fair opportunity to present evidence, as he was
invited to and did present evidence at the hearing.
II.
We review the district court’s findings of fact for
clear error and conclusions of law de novo. See Alex ander v. Local 496, Laborers’ Int’l Union, 177 F.3d
394, 402 (6th Cir. 1999). We review a decision on a Rule
24(b) motion to intervene for abuse of discretion.
Grubbs v. Norris, 870 F.2d 343, 345 (6th Cir. 1989)
(“permissive intervention . . . is clearly only reviewable
under an abuse of discretion standard”). We also review
a district court’s evidentiary rulings for abuse of discretion. United States v. Morales, 687 F.3d 697, 701-02
(6th Cir. 2012).
Guzall presses eleven claims that fall into four
general categories: (1) Guzall’s accusations of Seifman’s
misconduct, (2) Seifman’s intervention, (3) Guzall’s
costs in litigating the underlying case, and (4) the
district court’s treatment of the shareholder agreement

App.6a
as a fee-splitting agreement. As to Guzall’s accusations
of misconduct, see Appellant Br. p. 3-5 (issues 1, 2, 5,
9, and 10 in the Statement of Issues Presented), we
affirm the district court’s decision to refrain from
adjudicating Guzall’s claims, which overlap with the
allegations of misconduct at the heart of Guzall’s
state court litigation. Guzall and Seifman accepted
the case evaluation award to end that litigation, and
under Michigan law, “acceptance of a case evaluation
is essentially a consent judgment and res judicata
applies to consent judgments.” Garrett v. Washington,
886 N.W.2d 762, 766 (Mich. Ct. App. 2016) (quotation
marks, editorial marks, and citations omitted). The
district court properly applied res judicata and refrained
from re-litigating those claims.
As to Seifman’s intervention, see Appellant Br.
p. 3-5 (issues 3, 4, and 11 in the Statement of Issues
Presented), the district court did not abuse its discretion
in permitting Seifman to intervene. See Dean v. Holiday
Inns, Inc., 860 F.2d 670 (6th Cir. 1988) (permitting
attorney to intervene in similar context). And as to
Guzall’s costs, see Appellant Br. p. 5 (issues 7 and 8
in the Statement of Issues Presented), based on the
factual record before us, the district court did not
abuse its discretion in conducting the evidentiary
hearing or determining his hourly rate and costs. See

Ecclestone, Moffett & Humphrey, P.C. v. Ogne, Jinks,
Alberts & Stuart, P.C., 441 N.W.2d 7, 8 (Mich. Ct.

App. 1989) (explaining “that the court has the discretion
to assess reasonable attorney fees; there is no requirement for the court to assess actual attorney fees”).
Finally, as to the shareholder agreement, see
Appellant Br. p. 4 (issue 6 in the Statement of Issues
Presented), Guzall argues the district court erred by

App.7a
interpreting the agreement as a fee-splitting agreement.
“Generally, the interpretation of a contract is reviewed
de novo.” Gerken Paving, Inc v. LaSalle Group, Inc.,
558 F. App’x 510, 514 (6th Cir. 2014). Guzall complains
that the district court improperly considered unpublished and out-of-state cases in its analysis. But Guzall
cites no Michigan cases that counsel against a court’s
interpreting a shareholder agreement as a fee-splitting
agreement in interpreting a contract. The district
court did not err in considering nonbinding opinions
where no binding authority spoke to the issue presented.
Guzall alternatively argues that, even assuming
the shareholder agreement could be construed as a
fee-splitting agreement, published opinions from the
Michigan Court of Appeals demonstrate that quantum
meruit is the appropriate vehicle for deciding Seifman’s
share of the attorney contingency fee. See Ambrose
v. Detroit Edison Co., 237 N.W.2d 520 (Mich. Ct.
App. 1975); Reynolds v. Polen, 564 N.W.2d 467, 470
(Mich. Ct. App. 1997); Ecclestone, 441 N.W.2d at 8.
But Michigan courts have held that the recovery-byquantum-meruit rule can be displaced by a fee-splitting
agreement. See McCroskey, Feldman, Cochrane &
Brock, P.C. v. Waters, 494 N.W.2d 826, 827-28 (Mich.
Ct. App. 1992) (enforcing a fee-splitting agreement
between a lawyer and his former firm instead of apportioning a fee based on quantum meruit and opining that
such agreements “should be encouraged”); Torpey v.

Secrest, Wardle, Lynch, Hampton, Truex, Morley,
PC, Nos. 234956, 234973, 2003 WL 21958289, at *4

(Mich. Ct. App. Aug. 14, 2003) (holding that a “fee-splitting arrangement mandating that a percentage of fees
obtained by a departing attorney for former firm

App.8a
cases be given to the firm as a way to compensate the
firm for its work” was enforceable). Indeed, in both
McCroskey and Torpey, the court noted that such feesplitting agreements were “intended to eliminate the
need for a quantum meruit analysis.” Torpey, 2003 WL
21958289, at *5; accord McCroskey, 494 N.W.2d at
828. Finally, in Kohl, Harris, Nolan & McCarthy, P.C.
v. Peters, No. 275377, 2008 WL 183294, at *2-*3 (Mich.
Ct. App. Jan. 22, 2008), the Michigan Court of Appeals
even enforced a verbal fee-splitting agreement in which
there was no specific provision governing fee allocation if a lawyer left the firm.
In this case, the shareholder agreement was a
fee-splitting agreement with no provision governing
fee allocation if either Seifman or Guzall left the firm
and took a case with him. The district court, consistent
with McCroskey and Torpey, determined that the feesplitting agreement displaced the general rule and
remained in force after Guzall left the Firm. Because
we find likewise, we conclude that the district court
did not err in reaching this conclusion.
III.
For the foregoing reasons, we AFFIRM the judgment of the district court.

App.9a
ORDER ADOPTING REPORT AND
RECOMMENDATION [155];
OVERRULING PLAINTIFF’S OBJECTION [156];
AND GRANTING PLAINTIFF’S MOTION FOR
ATTORNEY FEES AND COSTS
(MAY 16, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
________________________
JOHN HANKINS,

Plaintiff,
v.
CITY OF INKSTER, ET AL.,

Defendants.

________________________
Case No. 09-13395

Before: Arthur J. TARNOW, Senior U.S. District
Judge; R. Steven WHALEN, U.S. Magistrate Judge.
Plaintiff John P. Hankins filed a Complaint [Dkt.
1] against Defendants City of Inkster and Gregory
Gaskin on August 27, 2009, alleging discrimination
in violation of federal and state law; violation of the
Michigan Whistleblower’s Protection Act; violation of
the Michigan Open Meetings Act; conspiracy; intentional infliction of emotional distress; and hostile work
environment. The case settled, and the settlement

App.10a
agreement was placed on the record on February 21,
2012.
Plaintiff filed the Motion for Attorney Fees and
Costs [109] on April 26, 2012. The Court administratively terminated Plaintiff’s motion on March 27, 2013
[140]. The Magistrate Judge entered an Order
Reopening the Case [153] on March 7, 2016.
On December 8, 2017, the Magistrate Judge issued
a Report and Recommendation (“R&R”) [155] recommending that the Court grant Plaintiff’s Motion for
Attorney Fees and Costs. Specifically, the Magistrate
Judge opined that the attorney fee should be divided
between Barry Seifman and Raymond Guzall, with Mr.
Guzall receiving 25% plus an additional $24,000.00,
and Mr. Seifman receiving the remainder.
Plaintiff filed an Objection [156] to the R&R on
December 21, 2017. The R&R and Objection have been
fully briefed.
For the reasons explained in depth below, the
Court ADOPTS the R&R. Plaintiff’s Objection [156]
is OVERRULED. Plaintiff’s Motion for Attorney Fees
and Costs [109] is GRANTED.
THE REPORT AND RECOMMENDATION
The R&R summarized the record as follows:
I.

Facts
A. Procedural History

Plaintiff was a police officer employed by the
City of Inkster. On August 27, 2009, he filed a civil
complaint in this Court that included allegations of
employment discrimination and retaliation [Doc. #1].

App.11a
On April 10, 2010, he filed an amended complaint [Doc.
#12]. Attorney Raymond Guzall III signed both the
original and the amended complaint on behalf of
Seifman & Guzall, P.C., the firm that Mr. Hankins
retained to represent him in his case. On February
21, 2012, the case settled.1 The present dispute over
the attorney fee stems from the fact that before the
settlement, Mr. Guzall left Seifman & Guzall, P.C.,
and continued his representation of Mr. Hankins, at
Mr. Hankins’ request, through his own law firm,
Raymond Guzall, P.C.
On April 26, 2012, Plaintiff filed the present
Motion for Determination of Attorney Fees [Doc. #109].
On May 2, 2012, the Court ordered the Defendant to
remit the funds representing the attorney fees to the
Clerk of the Court “for deposit in an interest-bearing
escrow account in accordance [with] Local Rule 67.1.”
[Doc. #112]. On the same date, the Court granted Barry
Seifman’s motion to intervene as a third party plaintiff
[Doc. #113], and denied Plaintiff Hankins’ motion to
strike Mr. Seifman’s motion to intervene [Doc. #112].
Mr. Seifman filed his third party complaint on May
4, 2012 [Doc. #115].
I held a status conference on October 2, 2012, at
which a separate Oakland County lawsuit between
Mr. Guzall and Mr. Seifman was discussed. In my
Order Regarding Evidentiary Hearing [Doc. #132], I
noted that “I would not permit testimony as to Mr.
Guzall’s allegations of pervasive wrongdoing by Mr.
Seifman unrelated to this case, allegations that form
the basis of a separate lawsuit pending in the Oakland
County Circuit Court.” I added that “[w]e will not try
1 The settlement amount is subject to a confidentiality provision.

App.12a
the Oakland County lawsuit de facto in the context of
this evidentiary hearing on attorney fees.”
On March 26, 2013, I held a settlement conference,
but a resolution could not be reached.
On March 27, 2013, the Court administratively
terminated this motion and held it in abeyance, permitting the motion to be reopened following the
resolution of the Oakland County Circuit Court case
[Doc. #140]. The case was reopened on March 7, 2016
[Doc. #153].
B. Evidentiary Hearing Testimony
John Hankins, the Plaintiff, testified that he
signed a retainer agreement with Seifman & Guzall,
P.C. around July of 2009 (Tr. 25-26). The agreement
provided for a 1/3 contingency fee to be paid to that
law firm (Tr. 13). From the beginning, he wanted Mr.
Guzall to handle his case (Tr. 40), and sometime before
December of 2011 he expressed to Mr. Guzall his dissatisfaction with Mr. Seifman (Tr. 31-32, 34). After
Mr. Seifman recommended accepting a settlement offer
from the City of Inskter, Mr. Hankins, finding the
offer unacceptable, told Mr. Guzall that he did not
want Mr. Seifman to represent him (Tr. 22). Before
Christmas of 2011, he and Mr. Guzall discussed the
possibility that Mr. Guzall would part company with
Mr. Seifman and either start his own law firm or join
another firm (Tr. 29). Mr. Guzall initiated this conversation (Tr. 30). When Mr. Hankins was informed
that Mr. Guzall was starting his own firm, he told
Guzall that he wanted to stay with him (Tr. 34-35).
This was about two months before the scheduled trial,
and Mr. Hankins did not want a new attorney to come
in that late in the game (Tr. 41). Mr. Hankins testified

App.13a
that he wanted Mr. Guzall to handle his case regardless
of whether he stayed with or left Seifman & Guzall
(Tr. 40). He signed a retainer agreement with the
newly-formed Law Office of Raymond Guzall, III on
February 13, 2012 (Tr. 16-17). The agreement provided
for a one-third contingency fee (Tr. 13, 25).
Mr. Hankins testified that he never verbally told
Mr. Seifman that he no longer wanted the firm to
represent him, but that he mailed a letter to that
effect on January 12, 2012 (Tr. 22-24). The case settled
in February of 2012, and Mr. Hankins has received
all of the settlement money he was entitled to (Tr. 29).
Raymond Guzall testified that he was a
shareholder in Seifman & Guzall, P.C. from 2006 until
he left the firm on February 6, 2012 (Tr. 42). The first
shareholder agreement (Seifman Exhibit #3) gave Mr.
Guzall a 5% ownership share. The agreement provided
for an annual salary of $100,000 for Mr. Guzall, and
also stated:
“Division of any surplus above salaries may
occur when, in the judgment of Barry A.
Seifman, adequate funds are available consistent with the respective ownership interests.” (Tr. 54-55).
In addition, the agreement stated:
“In the event there appears in the judgment
of Barry A. Seifman, a situation wherein it
appears that the owners cannot get along,
or Raymond Guzall III seeks to separate
from the Company, he shall be paid the sum
of Five Dollars ($5.00) for his stock ownership and all files shall remain the property
of the Company.”

App.14a
Over time, the agreement was amended to incrementally increase Mr. Guzall’s ownership share, and
before he left the firm, Mr. Guzall’s ownership had
increased to 25% (Tr. 55-59, 66). Mr. Guzall testified
that he did not interpret the shareholder agreement
as a “fee-splitting agreement,” although he sometimes
got an extra payment, on top of his salary, at the end of
the year (Tr. 50-51).
Mr. Guzall testified that he contemplated leaving
the Seifman & Guzall firm as early as August or September, 2011 (Tr. 43), and made the decision to leave
in November of 2011 (Tr. 68). In December of 2011 he
told Mr. Hankins he was thinking about leaving the
firm, and also told him that he could stay with Seifman,
go to another firm, or come with Guzall (Tr. 43-45).
Mr. Guzall testified that February 5, 2012 was
when he first gave notice to Mr. Seifman that he was
leaving. This was Super Bowl weekend, and Mr. Guzall
left his written notice, along with Mr. Hankins’
termination letter, on Mr. Seifman’s chair (Tr. 43, 47,
70-73).2 This was also the first time he gave Mr. Seifman Mr. Hankins’ termination letter (Tr. 70). He
also removed a number of physical files, including
Mr. Hankins’ file that weekend. He had transferred
electronic files a few weeks before that (Tr. 88).
Mr. Guzall signed a lease on his new office on
January 12, 2012 (Tr. 68). He incorporated Raymond
Guzall, P.C. on February 1, 2012 (Tr. 75). He signed
a contingent fee agreement with Mr. Hankins on
February 13, 2012 (Tr. 46). The terms of the ultimate
settlement were placed on the record on February 21,
2 Super Bowl XLVI was played on Sunday, February 5, 2012.

App.15a
2012 (Tr. 93). Mr. Guzall testified that all the time he
spent on the case between the time Mr. Hankins
retained Seifman & Guzall and when he left the firm
was work performed as a shareholder and employee
of Seifman & Guzall (Tr. 89).
Barry Seifman testified that by the time Mr. Guzall
left the firm, he had risen to the level of a 25% shareholder (Tr. 104). Contrary to Mr. Guzall’s testimony,
Mr. Seifman considered the shareholder agreement
to be a fee-splitting agreement (Tr. 107-108, 111). He
testified that when a settlement or award was received
in a contingent fee case, and if there were sufficient
funds to make a disbursement after expenses, he would
distribute according to the percentages in the shareholder agreement (Tr. 106-107). He said that in general,
the proportional distribution was not done on a caseby-case basis, but based on firm’s the overall aggregate profit, although the fees (after expenses) would
be split earlier in the case of a large settlement (Tr.
124-126). He testified that both he and Mr. Guzall
received salaries and shared in profits (Tr. 117).
Mr. Seifman testified that he did not receive Mr.
Hankins’ termination letter until he found it on his
chair on February 6, 2012, along with termination
letters from other clients (Tr. 105). This was the first
time he learned that Mr. Guzall was leaving the firm,
and the first time that Mr. Hankins informed him that
he was leaving the firm and taking clients with him
(Tr. 119).
LEGAL STANDARD
The Court must make a de novo determination of
the portions of the R&R to which Defendants have
objected. 28 U.S.C. § 636(b)(1)(C). “A judge of the

App.16a
court may accept, reject, or modify, in whole or in
part, the findings or recommendations made by the
magistrate judge.” Id.
“The filing of vague, general, or conclusory objections does not meet the requirement of specific objections and is tantamount to complete failure to object.”
Cole v. Yukins, 7 F. Appx. 354, 356 (6th Cir. 2001).
“‘[O]bjections disput[ing] the correctness of the magistrate’s recommendation but fail[ing] to specify the
findings . . . believed in error’ are too general.” Novak
v. Prison Health Services, Inc., No. 13-11065, 2014
WL 988942, at *3 (E.D. Mich. Mar. 13, 2014) (quoting
Miller v. Currie, 50 F.3d 373, 380 (6th Cir. 1995)).
ANALYSIS
The Magistrate Judge determined that the shareholder agreement between Mr. Seifman and Mr. Guzall
was effectively a fee-splitting agreement. The Magistrate Judge decided that it was reasonable to award
Mr. Guzall for 80 hours of work, at $300.00 per hour,
on Plaintiff’s case. This means that Mr. Guzall would
receive an award of 25%, plus $24,000.00 ($300 x 80),
with the remaining portion of the fee going to Mr.
Seifman.
Mr. Guzall launches a number of objections to
the R&R. He contends that the Magistrate Judge erred
in his calculation of the attorney fee. He also claims
that the R&R violates the law because it fails to
address Mr. Seifman’s alleged breach of agreements
and illegal acts. He argues that the R&R violates the
Magistrate Judge’s January 3, 2013 Order [132], which
set forth the parameters of the January 23, 2013 evidentiary hearing. Mr. Guzall also asserts that the
Magistrate Judge erred in determining that “Seifman

App.17a
had any claim against attorney Guzall.” (Dkt. 156 at
9). He further maintains that the Magistrate Judge
wrongfully denied his right to be reimbursed for
“extended costs” in this case, and that he was denied
the opportunity to present the amount of his hourly
rate and the number of hours he worked on the case.
Mr. Guzall’s arguments are unavailing. Many of
the objections relate to an Oakland County Circuit
Court case concerning the dissolution of Mr. Guzall’s
and Mr. Seifman’s law firm. Mr. Guzall’s objections
rely on underlying claims that were already litigated—
and decided upon—in the Michigan state courts. In
addition, Mr. Guzall simply rehashes many of his
previous arguments; objections to an R&R are not
meant as a vehicle to simply restate previous arguments
already considered. Wade v. Berryhill, No. 16-10042,
2017 WL 8355590, at *1 (E.D. Mich. Mar. 3, 2017)
(citing Davis v. Caruso, No. 07-10115, 2008 WL 540818,
at *2 (E.D. Mich. Feb. 25, 2008)).
I.

The Calculation of the Attorney Fee.

As stated in his earlier briefs, Mr. Guzall contends
that the shareholder agreements were not fee splitting
agreements. Finding otherwise, he says, was clear
error. He also takes issue with the Magistrate Judge’s
reliance on non-binding cases.
The Court finds no clear error in the Magistrate
Judge’s thorough fact finding. It doesn’t matter, as
the Magistrate Judge recognized, that the shareholder
agreements did not contain the words “fee splitting
agreement”; the shareholder agreement’s 75/25 ownership provision provides that Mr. Seifman should
receive 75% of the attorney fee in this case. The agreement also contained the following provision:

App.18a
Division of any surplus above salaries may
occur when, in the judgment of Barry A.
Seifman, adequate funds are available consistent with the respective ownership interests.
(Dkt. 111-3).
Mr. Guzall testified that at the time he left the
firm, he “was a 25 percent shareholder, slash, stockholder in the firm.” (Tr. 51:16-17, 59:20-22). Mr. Guzall
said that, in addition to receiving a salary, “there
were times either at the end of the year or the
beginning of the year, depending on the full amount
brought into the law firm, there may have been
monies paid out” to himself and Mr. Seifman. Id. at
51:22-25. Similarly, Mr. Seifman testified that “when
there is sufficient funds to make a disbursement and
not put the firm in jeopardy . . . [I] would then distribute according to what the share of each of us
were.” Id. at 106:24-25, 107:1-4. This is, effectively,
fee splitting: when extra money came in to the firm,
it was split up and paid out depending on each person’s share.

Kohl, Harris, Nolan & McCarthy, P.C. v. Peters,

2008 WL 183294 (Mich. Ct. App. Jan. 22, 2008), though
unpublished, is informative on this issue. There,
Defendant Peters and his former law partner, Harris,
formed a law firm. They entered into a Memorandum
of Buy-Sell Agreement and a Shareholder Employment
Agreement, which provided that “if a shareholder
voluntarily terminated his employment with the firm
and took an unfinished contingency case, the
terminating attorney would be obligated to pay the
remaining shareholder(s) one-third of the collected
attorney fee, plus costs incurred by the firm.” Id. at *1.

App.19a
One year later, Kohl joined the firm as an independent contractor. “Kohl did not become a shareholder
or employee of the corporation.” Id. Rather, he entered
into a verbal contractual fee-splitting agreement that
“was not reduced to writing, but was honored and
implemented in practice over the years.” Id.
The firm agreed to represent the Werthman Group
in 1998. Peters entered into the contingency agreement
with the Werthman Group on the firm’s behalf, but
Kohl did a significant amount of work on the case.
Two years later, Peters left the firm and, with his
former partners’ consent, took the Werthman case with
him. Id. Shortly thereafter, Peters’ former firm filed
suit against Peters to recover Kohl’s portion of the
fee. Peters argued that he was “not obligated to compensate Kohl under the fee-splitting agreement between
his former law firm and Kohl.” Id. at *2.
The Michigan Court of Appeals rejected Peters’
argument. It noted that “had [Peters] continued his
employment with the firm, Kohl would have received
50 percent of the net contingency fee.” Id. Additionally,
“[w]hen Peters terminated his employment with the
firm and took the Werthman case with him, the existing
contractual obligation to pay Kohl 50 percent of the
net contingency fee continued and was not modified
in any way.” Id. The court, citing to a number of outof-state cases, stated:
[A] majority of jurisdictions treat a pending
contingent-fee case taken by a terminating
attorney as an asset of the originating firm
and that, upon collection of the contingency
fee, the terminating attorney has a continuing
fiduciary duty in regard to fee splitting, and

App.20a
must comply with the terms of any applicable
fee splitting agreement.

Id. at *3 (internal citations omitted).
Like Defendant Peters, Mr. Guzall “took a corporate asset (the [Hankins] case) from the firm, which
remained subject to existing contractual agreements
with others.” Id. “When he took the case, [Guzall] was
required to honor the existing contractual obligation
. . . as nothing modified or obviated that agreement.”

Id.

The Court is well aware that Kohl is not precisely
on point with this situation. That said, there is nothing
defective about the Magistrate Judge’s reasoning. As
the Magistrate Judge concluded, Kohl indicates that
a shareholder agreement that allocates a percentage
ownership to each shareholder operates as a feesplitting agreement. (R&R at 9, n.3).
Finally, Mr. Guzall’s protestations of the Magistrate Judge’s references to non-Michigan case law are
without merit. Unpublished and non-binding decisions
“may be considered for their persuasive value.” Peguese
v. PNC Bank, N.A., 306 F.R.D. 540, 544 (E.D. Mich.
2015) (quoting United States v. Keith, 559 F.3d 499,
505 (6th Cir. 2009)). Additionally, “[n]on-binding decisions can have great utility when binding decisions
on the contested issues are scarce, and where the unpublished decision addresses exactly, or almost exactly
the same issue as the court confronts.” Smith v. Astrue,
639 F. Supp. 2d 836, 842 (W.D. Mich. 2009).

App.21a
II.

The R & R’s Failure to Address Mr. Seifman’s
Alleged Breach of Agreements and Illegal Acts.

Mr. Guzall contends that the Magistrate Judge
failed to determine the issues of Mr. Seifman’s alleged
breach of agreements and illegal acts.
Mr. Seifman filed suit against Mr. Guzall in Oakland County Circuit Court on February 17, 2012. On
May 13, 2015, at the conclusion of a hearing on Mr.
Seifman’s motion for summary disposition, Oakland
County Circuit Court Judge Daniel P. O’Brien found
that Mr. Guzall removed the client files from Mr.
Seifman’s law offices. Mr. Guzall and Mr. Seifman
entered into case evaluation that same day. (Dkt. 1574).
On July 13, 2015, Judge O’Brien issued two orders.
The first stated that Mr. Guzall “improperly removed
the physical client files from the law offices of Barry
A. Seifman P.C.” (Dkt. 157-2). The second stated “that
all pending claims have been resolved by the Parties
[sic] acceptance of their applicable case evaluations
and this order resolves the last pending claim and
closes the case.” (Dkt. 157-3). Mr. Guzall appealed
Judge O’Brien’s decision, which was ultimately affirmed
by the Michigan Court of Appeals.3
Mr. Guzall’s objections concerning the Magistrate
Judge’s failure to rule on Mr. Seifman’s alleged breach
of agreements and illegal acts are merely improper
attempts to circumvent the findings and conclusions
of the Michigan state courts. Mr. Guzall had ample
opportunity to litigate these claims in the state court
3 The Michigan Supreme Court denied Mr. Guzall’s request for
leave to appeal.

App.22a
case, which lasted more than three years. The Michigan
Court Rules, as well as the Michigan Supreme Court,
clearly provide that, “upon both parties’ acceptance of
a case evaluation, the judgment entered pursuant to
that evaluation ‘shall be deemed to dispose of all
claims in the action.’” CAM Const. v. Lake Edgewood
Condominium Ass’n, 465 Mich. 549, 554 (2002) (citing
MCR 2.403(M)(1)). While it is true that Mr. Guzall
and Mr. Seifman agreed to exclude the attorney fee
issue in this case from the Oakland County litigation,
it is also true that Mr. Guzall has no basis to claim
that Mr. Seifman breached agreements or committed
illegal acts, as he previously agreed to dispose of
those claims in the Oakland County case.
III. The R & R’s Violation of the Magistrate Judge’s
January 3, 2013 Order Regarding Evidentiary
Hearing [132].
Mr. Guzall asserts that the Magistrate Judge
violated his previous order when he failed to award
Mr. Seifman monies under quantum meruit.
On January 3, 2013, the Magistrate Judge entered
an Order Regarding Evidentiary Hearing [132], in
which he set forth the date, time, and scope of the
hearing, as well as permissible topics about which the
witnesses could testify. The Magistrate Judge
prohibited all “testimony as to Mr. Guzall’s allegations
of pervasive wrongdoing by Mr. Seifman unrelated to
this case.” Id. at 2. He reiterated that he would “not
try the Oakland County lawsuit de facto in the context
of this evidentiary hearing on attorney fees.” Id. The
Magistrate Judge confined the hearing to six main
issues, including the shareholder agreements between
Mr. Guzall and Mr. Seifman, “the attorney time ex-

App.23a
pended in this case by Mr. Guzall and Mr. Seifman . . . and whether Mr. Seifman should take any
portion of the fee under quantum meruit.” Id. at 3.
On January 23, 2013, the Court denied Mr.
Guzall’s Objection [133] to the Magistrate Judge’s
Order. That same day, the Magistrate Judge conducted
the evidentiary hearing according to the terms of the
previous Order.
Contrary to Mr. Guzall’s position, the Magistrate
Judge never said that the Court would only award
monies to Mr. Seifman under the doctrine of quantum
meruit. The Order Regarding Evidentiary Hearing
[132] makes clear that the purpose of the hearing is
to determine “the manner in which attorney fees in
[Plaintiff’s] case would be apportioned.” Id. at 2. In order
to accomplish this goal, the Magistrate Judge correctly
considered both the shareholder agreements and the
principles of quantum meruit, as well as the lawyers’
hourly rates and time spent on Hankins’ case.
IV. The Magistrate Judge’s Determination that “Seifman Had Any Claim Against Attorney Guzall”.
Mr. Guzall claims that the R&R improperly
“illustrates a determination against Guzall and not
as against Mr. Hankins.” (Dkt. 156 at 9). The Court
is unclear as to Mr. Guzall’s exact argument, but in
any event, Mr. Guzall agreed that this Court, rather
than the Oakland County Circuit Court, would decide
the attorney fee issue. (Dkt. 157-6 at 3). In addition,
attorney “fees are part of the overall costs of the
underlying litigation. Resolution of related fee disputes
is often required to provide a full and fair resolution
of the litigation.” Kalyawongsa v. Moffett, 105 F.3d
283, 288 (6th Cir. 1997).

App.24a
V.

Mr. Guzall’s Right to be Reimbursed for Extended
Costs, and the Presentation of His Hourly Rate
and the Number of Hours He Worked on the Case

Mr. Guzall submits that the Magistrate Judge
erred by failing to consider “monies paid by Guzall in
the Hankins [sic] case.” (Dkt. 156 at 22). Such a conclusory, generalized statement is insufficient to sustain
this objection.
Mr. Guzall also argues that he was denied a fair
opportunity to “properly present” the actual amount
of his hourly attorney rate and the number of hours
he worked. Id. at 23. This is completely nonsensical
given that, prior to the evidentiary hearing, the Magistrate Judge informed the parties that the testimony
at the hearing would be confined to, among other
things, “[t]he attorney time expended in this case by
Mr. Guzall and by Mr. Seifman,” as well as “the
hourly rates charged by Mr. Guzall and by Mr. Seifman.” (Dkt. 132 at 3).
CONCLUSION
The Court having reviewed the record, the Report
and Recommendation [155] is hereby ADOPTED and
entered as the findings and conclusions of the Court.
Accordingly,
IT IS ORDERED that Plaintiff’s Objection [156]
is OVERRULED
IT IS FURTHER ORDERED that Plaintiff’s
Motion for Attorney Fees and Costs [109] is GRANTED.
IT IS FURTHERED ORDERED that the attorney
fee shall be divided between Barry Seifman and
Raymond Guzall, with Mr. Guzall receiving 25% plus

App.25a
an additional $24,000.00, and Mr. Seifman receiving
the remainder.
SO ORDERED.
/s/Arthur J. Tarnow
Senior United States District Judge
Dated: May 16, 2018

App.26a
REPORT AND RECOMMENDATION
OF THE MAGISTRATE JUDGE
(DECEMBER 8, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
________________________
JOHN HANKINS,

Plaintiff,
v.
CITY OF INKSTER, ET AL.,

Defendants.

________________________
No. 09-13395

Before: Arthur J. TARNOW, District Judge; R.
Steven WHALEN, Magistrate Judge.
Before the Court is Plaintiff’s Motion for Determination of Attorney Fees and Costs [Doc. #109],
which has been referred for a Report and Recommendation under 28 U.S.C. § 636(b)(1)(B). The case
settled, and Plaintiff Hankins, who signed a onethird contingent fee agreement first with Seifman &
Guzall, P.C., and later with Raymond Guzall, P.C.,
has received all the money he would be entitled to
under the settlement. Mr. Seifman has filed a lien on
the attorney fees. One-third of the settlement amount
has been placed in an interest-bearing escrow account.

App.27a
For the reasons discussed below, I recommend that
the motion be GRANTED, and that the attorney fee be
divided between Mr. Seifman and Mr. Guzall, with Mr.
Guzall receiving 25% plus an additional $24,000.00,
and Mr. Seifman receiving the remainder.
I.

Facts
A. Procedural History

Plaintiff was a police officer employed by the
City of Inkster. On August 27, 2009, he filed a civil
complaint in this Court that included allegations of
employment discrimination and retaliation [Doc. #1].
On April 10, 2010, he filed an amended complaint [Doc.
#12]. Attorney Raymond Guzall III signed both the
original and the amended complaint on behalf of
Seifman & Guzall, P.C., the firm that Mr. Hankins
retained to represent him in his case. On February
21, 2012, the case settled.1 The present dispute over
the attorney fee stems from the fact that before the
settlement, Mr. Guzall left Seifman & Guzall, P.C.,
and continued his representation of Mr. Hankins, at
Mr. Hankins’ request, through his own law firm,
Raymond Guzall, P.C.
On April 26, 2012, Plaintiff filed the present
Motion for Determination of Attorney Fees [Doc. #109].
On May 2, 2012, the Court ordered the Defendant to
remit the funds representing the attorney fees to the
Clerk of the Court “for deposit in an interest-bearing
escrow account in accordance [with] Local Rule 67.1.”
[Doc. #112]. On the same date, the Court granted Barry
Seifman’s motion to intervene as a third party plain1 The settlement amount is subject to a confidentiality provision.

App.28a
tiff [Doc. #113], and denied Plaintiff Hankins’ motion
to strike Mr. Seifman’s motion to intervene [Doc.
#112]. Mr. Seifman filed his third party complaint on
May 4, 2012 [Doc. #115].
I held a status conference on October 2, 2012, at
which a separate Oakland County lawsuit between
Mr. Guzall and Mr. Seifman was discussed. In my
Order Regarding Evidentiary Hearing [Doc. #132], I
noted that “I would not permit testimony as to Mr.
Guzall’s allegations of pervasive wrongdoing by Mr.
Seifman unrelated to this case, allegations that form
the basis of a separate lawsuit pending in the Oakland
County Circuit Court.” I added that “[w]e will not try
the Oakland County lawsuit de facto in the context of
this evidentiary hearing on attorney fees.”
On March 26, 2013, I held a settlement conference,
but a resolution could not be reached.
On March 27, 2013, the Court administratively
terminated this motion and held it in abeyance, permitting the motion to be reopened following the
resolution of the Oakland County Circuit Court case
[Doc. #140]. The case was reopened on March 7, 2016
[Doc. #153].
B. Evidentiary Hearing Testimony
John Hankins, the Plaintiff, testified that he
signed a retainer agreement with Seifman & Guzall,
P.C. around July of 2009 (Tr. 25-26). The agreement
provided for a 1/3 contingency fee to be paid to that
law firm (Tr. 13). From the beginning, he wanted Mr.
Guzall to handle his case (Tr. 40), and sometime before
December of 2011 he expressed to Mr. Guzall his
dissatisfaction with Mr. Seifman (Tr. 31-32, 34). After

App.29a
Mr. Seifman recommended accepting a settlement offer
from the City of Inskter, Mr. Hankins, finding the
offer unacceptable, told Mr. Guzall that he did not
want Mr. Seifman to represent him (Tr. 22). Before
Christmas of 2011, he and Mr. Guzall discussed the
possibility that Mr. Guzall would part company with
Mr. Seifman and either start his own law firm or join
another firm (Tr. 29). Mr. Guzall initiated this conversation (Tr. 30). When Mr. Hankins was informed
that Mr. Guzall was starting his own firm, he told
Guzall that he wanted to stay with him (Tr. 34-35).
This was about two months before the scheduled trial,
and Mr. Hankins did not want a new attorney to come
in that late in the game (Tr. 41). Mr. Hankins testified
that he wanted Mr. Guzall to handle his case regardless
of whether he stayed with or left Seifman & Guzall
(Tr. 40). He signed a retainer agreement with the
newly-formed Law Office of Raymond Guzall, III on
February 13, 2012 (Tr. 16-17). The agreement provided
for a one-third contingency fee (Tr. 13, 25).
Mr. Hankins testified that he never verbally told
Mr. Seifman that he no longer wanted the firm to
represent him, but that he mailed a letter to that
effect on January 12, 2012 (Tr. 22-24). The case settled
in February of 2012, and Mr. Hankins has received
all of the settlement money he was entitled to (Tr.
29).
Raymond Guzall testified that he was a shareholder in Seifman & Guzall, P.C. from 2006 until he
left the firm on February 6, 2012 (Tr. 42). The first
shareholder agreement (Seifman Exhibit #3) gave Mr.
Guzall a 5% ownership share. The agreement provided
for an annual salary of $100,000 for Mr. Guzall, and
also stated:

App.30a
“Division of any surplus above salaries may
occur when, in the judgment of Barry A.
Seifman, adequate funds are available consistent with the respective ownership interests.” (Tr. 54-55).
In addition, the agreement stated:
“In the event there appears in the judgment
of Barry A. Seifman, a situation wherein it
appears that the owners cannot get along,
or Raymond Guzall III seeks to separate
from the Company, he shall be paid the sum
of Five Dollars ($5.00) for his stock ownership and all files shall remain the property
of the Company.”
Over time, the agreement was amended to
incrementally increase Mr. Guzall’s ownership share,
and before he left the firm, Mr. Guzall’s ownership
had increased to 25% (Tr. 55-59, 66). Mr. Guzall testified that he did not interpret the shareholder agreement as a “fee-splitting agreement,” although he
sometimes got an extra payment, on top of his salary, at
the end of the year (Tr. 50-51).
Mr. Guzall testified that he contemplated leaving
the Seifman & Guzall firm as early as August or September, 2011 (Tr. 43), and made the decision to leave
in November of 2011 (Tr. 68). In December of 2011 he
told Mr. Hankins he was thinking about leaving the
firm, and also told him that he could stay with Seifman,
go to another firm, or come with Guzall (Tr. 43-45).
Mr. Guzall testified that February 5, 2012 was
when he first gave notice to Mr. Seifman that he was
leaving. This was Super Bowl weekend, and Mr. Guzall
left his written notice, along with Mr. Hankins’

App.31a
termination letter, on Mr. Seifman’s chair (Tr. 43, 47,
70-73).2 This was also the first time he gave Mr. Seifman Mr. Hankins’ termination letter (Tr. 70). He
also removed a number of physical files, including
Mr. Hankins’ file that weekend. He had transferred
electronic files a few weeks before that (Tr. 88).
Mr. Guzall signed a lease on his new office on
January 12, 2012 (Tr. 68). He incorporated Raymond
Guzall, P.C. on February 1, 2012 (Tr. 75). He signed
a contingent fee agreement with Mr. Hankins on
February 13, 2012 (Tr. 46). The terms of the ultimate
settlement were placed on the record on February 21,
2012 (Tr. 93). Mr. Guzall testified that all the time
he spent on the case between the time Mr. Hankins
retained Seifman & Guzall and when he left the firm
was work performed as a shareholder and employee of
Seifman & Guzall (Tr. 89).
Barry Seifman testified that by the time Mr. Guzall
left the firm, he had risen to the level of a 25% shareholder (Tr. 104). Contrary to Mr. Guzall’s testimony,
Mr. Seifman considered the shareholder agreement
to be a fee-splitting agreement (Tr. 107-108, 111). He
testified that when a settlement or award was received
in a contingent fee case, and if there were sufficient
funds to make a disbursement after expenses, he would
distribute according to the percentages in the shareholder agreement (Tr. 106-107). He said that in general,
the proportional distribution was not done on a caseby-case basis, but based on firm’s the overall aggregate
profit, although the fees (after expenses) would be
split earlier in the case of a large settlement (Tr. 1242 Super Bowl XLVI was played on Sunday, February 5, 2012.

App.32a
126). He testified that both he and Mr. Guzall received
salaries and shared in profits (Tr. 117).
Mr. Seifman testified that he did not receive Mr.
Hankins’ termination letter until he found it on his
chair on February 6, 2012, along with termination
letters from other clients (Tr. 105). This was the first
time he learned that Mr. Guzall was leaving the firm,
and the first time that Mr. Hankins informed him
that he was leaving the firm and taking clients with
him (Tr. 119).
II.

Discussion

Mr. Seifman contends that the distribution of
the Hankins attorney fee should be made according
to the 75%-25% ownership shares in the law firm,
arguing that the shareholder agreement is an enforceable fee-splitting arrangement. Mr. Guzall disputes
this characterization of the shareholder agreement,
and argues that Mr. Seifman is entitled to no more
than quantum meruit. Because Mr. Seifman’s involvement in the Hankins case was minimal, he argues,
then Mr. Seifman’s share of the fee should be minimal.
The shareholder agreement, along with its modifications, defined the legal relationship between Mr.
Seifman and Mr. Guzall. Regardless of whether or
not it is considered a fee-sharing arrangement, its 75/
25 ownership provision dictates that Mr. Seifman
receive 75% of the Hankins fee.
First, I am persuaded that while the shareholder
agreement could have been more specific as to how
fees were to be apportioned between the two shareholders, it was, in intent and effect, a fee-splitting
agreement. The undisputed testimony was that Mr.

App.33a
Guzall was initially given a 5% ownership interest in
Seifman & Guzall, and by the time he left, his ownership interest increased to 25%. It is only logical that
a 25% interest was more advantageous to Mr. Guzall
than a 5% interest. Yet the agreement provided that
if Mr. Guzall left the firm, he would be paid only $5.00
for his shares. What, then, was the value to him of
his ever-increasing ownership percentage under the
shareholder agreement? It could only have been a
proportional share of the profits of the law firm, profits
that were generated by fees such as those obtained in
the Hankins case. This is corroborated by Mr. Seifman’s
testimony that after expenses were paid, he would
make distributions, above his and Mr. Guzall’s salaries,
according to the ownership percentages in the shareholder agreement. Whether these distributions would
be made at the end of the year, based on aggregate
profits, or on a case-by-case basis in the event of a
large fee, they were made proportionally to Seifman’s
and Guzall’s respective ownership percentages. The
shareholder agreement can therefore be reasonably
interpreted to be a fee-splitting agreement.
In McCroskey, Feldman, Cochrane & Brock, P.C.
v. Waters, 197 Mich. App. 282, 287, 494 N.W.2d 826
(1993), the Court held that fee-splitting agreements
do not violate the Michigan Rules of Professional
Conduct, but rather “simply seek[] to obviate timeconsuming squabbles that formerly arose when plaintiff’s entitlement to its fair share of any fee generated
by a departing client’s file was determined on a
quantum merit basis.” The Court added that “such
arrangements, as long as they are reasonable, should
be encouraged.” Id. Fee-splitting agreements, such as
the shareholder agreement in this case, cover fees

App.34a
that might be attributable to the departing attorney’s
work on a case after separation from the law firm.

Torpey v. Secrest, Wardle, Lynch, Hampton, Truex,
Morley, PC, 2003 WL 21958289, at *5 (Mich. Ct. App.
2003), citing McCroskey (“Indeed, the fee-splitting
arrangement upheld in McCroskey clearly applied to
work performed after the attorney left the firm.”).

But even if the shareholder agreement is not
considered a fee-splitting agreement, its percentages
still govern the distribution of the Hankins fee. In
Jewel v. Boxer, 156 Cal. App.3d 171, 203 Cal. Rptr.13
(1984), the law firm of Jewel, Boxer and Elkind dissolved, with Jewel and Boxer forming separate law
firms. There was no agreement as to the allocation of
fees from active cases upon dissolution of the
partnership. The Court held that “absent a contrary
agreement, any income generated through the winding
up of unfinished business is allocated to the former
partners according to their respective interests in the
partnership.” 156 Cal. App.3d at 176. The Court considered the active cases as unfinished business of the
former law firm. The Jewel Court described the
“sound policy reasons” for this rule:
“The rule prevents partners from competing
for the most remunerative cases during the
life of the partnership in anticipation that
they might retain those cases should the
partnership dissolve. It also discourages
former partners from scrambling to take
physical possession of files and seeking
personal gain by soliciting a firm’s existing
clients upon dissolution.” Id. at 179.
Rejecting the trial court’s allocation of fees on
the basis of quantum meruit, the Jewel Court held:

App.35a
“In short, the trial court’s allocation of postdissolution income to the old and new firms
on a quantum meruit basis constituted error.
The appropriate remedy is to remand the
cause for posttrial proceedings to allocate
such income to the former partners of the
old firm in accordance with their respective
percentage interests in the former partnership.” Id. at 180.
The law firm in Jewel was a partnership, not a
corporation, and the Court relied in part on the Uniform
Partnership Act, Cal. Corp. Code § 15001 et seq.
However, in Fox v. Abrams, 163 Cal. App.3d 610, 210
Cal. Rptr. 260 (1985), the Court, noting that “Jewel
v. Boxer was not based solely on partnership law but
also cited ‘sound policy reasons’ for its decision,” id.
at 616, applied the “ownership percentage” rule to
law firms that practiced as professional corporations.
Citing the fiduciary obligations of law partners
discussed in Jewel, the Court found
“that attorneys practicing together in a law
corporation owe each other fiduciary duties
very similar to those owed by law partners,
and therefore the fact that a law corporation
is involved is no reason to disregard the fair
and reasonable principles of Jewel v. Boxer
or to interpret the parties’ agreement in a
manner favoring one group over another.”
Id. at 617.
In Vowell & Meelheim, P.C. v. Beddow, Erben &
Bown, P.A., 679 So.2d 637 (S.Ct. Ala. 1996), the
Alabama Supreme Court also applied the Jewel
methodology to a fee dispute between professional legal
corporations, noting that “the majority rule requires

App.36a
that legal fees earned from clients of the partnership
or professional association be divided according to
the interest of each partner in the partnership or the
interest of each shareholder in the professional association.” Id. at 640 (citing cases).3
While I have some concern with the manner in
which Mr. Guzall left his former law firm—that is,
surreptitiously taking client files on Super Bowl
Sunday, when no one would be in the office, and leaving
a note on Mr. Seifman’s chair for him to find on Monday
morning—it is not necessary to make a finding that
Mr. Guzall breached his fiduciary duty to the firm,
and I decline to make that finding. The Jewell
methodology of dividing post-dissolution fees according
to the ownership interest of each shareholder is “fair
and reasonable,” and may be applied without the
3 In Kohl, Harris, Nolan & McCarthy, P.C. v. Peters, 2008 WL
183294 (Mich. Ct. App. 2008), there was both a fee-splitting
agreement and a shareholder agreement. The Court stated:
“While no Michigan case law is directly on point, we
note that a majority of jurisdictions treat a pending
contingent-fee case taken by a terminating attorney
as an asset of the originating firm and that, upon
collection of the contingency fee, the terminating attorney has a continuing fiduciary duty in regard to fee
splitting, and must comply with the terms of any
applicable fee-splitting agreement.” Id. at *3 (emphasis
in original).
In support of this proposition, the Kohl Court cited Jewel, Fox,
and Vowell, all of which involved partnership or shareholder
agreements not explicit fee-splitting agreements. The import of
Kohl is that for purposes of distributing fees among former law
partners, a shareholder agreement that allocates a percentage ownership to each shareholder is the functional equivalent of a feesplitting agreement.

App.37a
necessity of litigating the issue of whether there was
a fiduciary breach. See Fox, 163 Cal. App.3d at 617.
One final point. In Vowell, the Court noted that on
remand, the trial court in Jewell
“made an equitable adjustment in this
majority rule. In order to adjust the allocation of fees to achieve what the trial court
deemed a fair result for all concerned, it
held that Vowell [the departing attorney
who completed the case] would be allowed a
reasonable hourly rate for the time spent by
the Vowell firm in completing the work on
the four cases. Specifically, the trial court
found that a reasonable rate for Vowell’s
time in 1987 would have been $125 per
hour. Therefore, based on the total fee the
Vowell firm had received in each of the four
cases at issue here, the trial court calculated
Vowell’s compensation for the hours spent
on each case, plus Vowell’s 21% interest in
the fees, and then calculated the total
amount due the Beddow firm [the originating
firm]. . . . ”
The testimony at the evidentiary hearing shows
that Mr. Guzall spent a considerable amount of time
on Mr. Hankins’ case, both as a shareholder in Seifman
& Guzall and at his own firm, and he clearly obtained
excellent results for Mr. Hankins. I therefore recommend that this Court apply the same equitable
adjustment that the trial court applied in Jewel, and
in addition to his 25% share of the Hankins fee, award
him an additional reasonable amount based on the time
expended on behalf of Mr. Hankins after Mr. Guzall
parted company with Mr. Seifman.

App.38a
Specifically, Mr. Guzall testified that he spent
155.5 hours on Mr. Hankins’ case after he left Seifman
and Guzall (Tr. 49). He incorporated his law practice
on February 1, 2012, and gave Mr. Seifman notice that
he was leaving on February 6, 2012. The case settled
on February 21, 2012. Mr. Guzall also took other files
with him, so his claim for 155.5 hours in the three
weeks or so he worked on the Hankins case after
separating from Mr. Seifman (approximately 52 hours
per week on this case alone) seems excessive, especially
since he testified that he put in an equivalent amount
of time while at Seifman & Guzall. While there is no
exact methodology for determining a specific number
of hours to attribute to Mr. Guzall—and he neither
kept nor provided contemporaneous time records–it
would be reasonable, and within this Court’s discretion,
to award him 80 hours, considering that before
settlement he would have spent time in trial preparation. In addition, and with reference to the State
Bar of Michigan’s most recent Economics of Law Practice Survey, an hourly rate of $300.00 is reasonable.
This would give Mr. Guzall an award of 25% of the
Hankins fee, plus $24,000.00 ($300 x 80), with the
remaining portion of the fee going to Mr. Seifman.
III. Conclusion
I recommend that Plaintiff’s Motion for Determination of Attorney Fees and Costs [Doc. #109] be
GRANTED, and that the attorney fee be divided
between Mr. Seifman and Mr. Guzall, with Mr. Guzall
receiving 25% plus an additional $24,000.00, and Mr.
Seifman receiving the remainder.
Any objections to this Report and Recommendation
must be filed within fourteen (14) days of service of a

App.39a
copy hereof as provided for in 28 U.S.C. § 636(b)(1)
and E.D. Mich. LR 72.1(d)(2). Failure to file specific
objections constitutes a waiver of any further right of
appeal. Thomas v. Arn, 474 U.S. 140, 106 S.Ct. 466,
88 L.Ed.2d 435 (1985); Howard v. Secretary of HHS,
932 F.2d 505 (6th Cir. 1991); United States v. Walters,
638 F.2d 947 (6th Cir. 1981). Filing of objections
which raise some issues but fail to raise others with
specificity will not preserve all the objections a party
might have to this Report and Recommendation. Willis
v. Secretary of HHS, 931 F.2d 390, 401 (6th Cir. 1991);
Smith v. Detroit Fed’n of Teachers Local 231, 829
F.2d 1370, 1373 (6th Cir. 1987). Pursuant to E.D.
Mich. LR 72.1(d)(2), a copy of any objections is to be
served upon this Magistrate Judge.
Within fourteen (14) days of service of any objecting
party’s timely filed objections, the opposing party
may file a response. The response shall be not more
than twenty (20) pages in length unless by motion
and order such page limit is extended by the court.
The response shall address specifically, and in the
same order raised, each issue contained within the
objections.
/s/ R. Steven Whalen
R. Steven Whalen
United States Magistrate Judge
Dated: December 8, 2017

App.40a
ORDER OF THE SIXTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(MAY 28, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
JOHN HANKINS,

Plaintiff-Appellant,
v.
CITY OF INKSTER, ET AL.,

Defendants,

________________________
BARRY SEIFMAN; BARRY SEIFMAN, P.C.,

Third-Party Plaintiffs Appellees,
RAYMOND GUZALL III;
RAYMOND GUZALL III, P.C.,

Third-Party Defendants Appellants,

________________________
No. 18-1645

Before: COLE, Chief Judge; BATCHELDER and
DONALD, Circuit Judges.

App.41a
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt
Clerk

App.42a
APPELLANTS’ PETITION
FOR REHEARING EN BANC
(APRIL 5, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
JOHN P. HANKINS,

Plaintiff -Third Party
Defendant-Appellant,
–v–
CITY OF INKSTER; GREGORY GASKIN,

Defendants -Third
Party Defendants,
BARRY A. SEIFMAN; BARRY A. SEIFMAN, P.C.,

Third Party Plaintiffs Appellees
and
RAYMOND GUZALL III; RAYMOND GUZALL III,
P.C.,

Appellants.
________________________

Raymond Guzall III (P60980)
Raymond Guzall III, P.C.
Attorney for Appellants’ /Plaintiff
31555 W. Fourteen Mile Rd.,

App.43a
Suite 320
Farmington Hills, MI 48334
(248) 702-6122
rayguzall@attomeyguzall.com
David W. Warren (P32449)
Joelson Rosenberg PLC
Attorney for Third-Party Plaintiffs-Appellees
Barry Seifman and Barry Seifman, P.C
30665 Northwestern Hwy, Suite 200
Farmington Hills, MI 48334
(248) 855-2233
Preface: The Panel’s Opinion conflicts with
the United States Supreme Court decisions
(Erie R. Co. v. Tompkins, 304 U.S. 64, 78, 58
S.Ct. 817, 822, 82 L.Ed. 1188 (1938); Exxon
Mobil Corp v. Saudi Basic Indus Corp, 544
U.S. 280, 292; 125 S.Ct. 1517, 1526-27; 161
L.Ed.2d 454 (2005); Donovan v. City of Dallas,
377 U.S. 408, 412-13; 84 S.Ct. 1579, 1582
(1964)) and conflicts with decisions of the 6th
Circuit (Ram Int’l, Inc. v. ADT Sec. Servs.,
Inc., 555 F. App’x 493, 507-08 (6th Cir. 2014);
Leary v. Daeschner, 228 F.3d 729, 741 (6th
Cir. 2000); and City of Pontiac Retired Employees Ass’n v. Schimmel, 751 F.3d 427, 432
(6th Cir. 2014)) and therefore consideration
by the full court is necessary to secure and
maintain uniformity of the court’s decisions.
The Panel Opinion creates new Michigan law,
directly reversing Michigan law which is: a
contingency fee agreement no longer operates
to determine the discharged attorney’s fee.
In this case the court paid the discharged

App.44a
attorney Seifman the contingency fee amount
agreed to with former client Hankins’, and
awarded Hankins’ attorney Guzall quantum
meruit, in direct opposition of Michigan law.
The Panel also created new contract law
in Michigan, as the Opinion allows Michigan
residents to create a contract beyond the
written word of the contract and in direct
contradiction to the admitted intent, in
direct contradiction to Michigan law, 6th
Circuit and U.S. Supreme court decisions.
To secure and maintain uniformity, the
Panel’s Opinion must be overturned.
I.

Statement of the case.

Attorney Seifman filed a lien against his former
client John Hankins upon his withdrawal to determine
Seifman’s fee:
Minute Entry-Status Conference held on 2/17/
2012 re: [94], [95] Motion to Withdraw before
District Judge Arthur J. Tarnow.
Disposition: Plaintiff’s counsel Barry Siefman
allowed to withdraw: lien issue to be decided
later. (Mlan)”
(Judge Tarnow Minute Entry, RE 118, Page
ID# 2697, emphasis).
The record is deplete of a determination of Seifmans’ filed lien, in direct contradiction to Michigan
law. Seifman’s lien was his remedy “[u]nder Michigan
law, a “special or charging lien” is an equitable right
to have the fees and costs due for services secured
out of the judgment or recovery in a particular suit.”

App.45a

Laborers Pension Tr. Fund-Detroit & Vicinity v. Interior
Exterior Specialists Co., 824 F.Supp.2d 764 (E.D. Mich.
2011). Therefore the court properly maintained jurisdiction to determine Seifman’s lien.

Instead of applying the law and determining
Seifman’s lien against Hankins, the trial court improperly determined Seifman was owed money by Hankins’
attorney Guzall. In violation of settled law and its
own order, the trial court then improperly based its
decision upon the prior agreements/contracts between
Guzall and Seifman as former law partners.
While proceeding against Guzall in violation of its
own order and Michigan law, the trial court refused
to address let alone analyze Seifman’s many breaches
of the agreements/contracts. Thus, after the trial
court proceeded in violation of its order and settled
law, the court further violated the law by preventing
Guzall from setting forth a defense to Seifman’s contract
claim, and in doing so deprived Guzall of due process.
The trial court also failed to address or analyze
Seifman’s numerous illegal acts and/or public policy
violations as Michigan law requires;
1.

Seifman admitted commingling his funds
with client funds in the Firm’s IOLTA account
over the 6 year period Seifman and Guzall
were law partners and when the Firm represented Hankins; (Objection, RE 156, Page ID
#3763-3764, Exhibit 2, Seifman dep., p. 110
lines 13-15 to p. 111 lines 10-12).

2.

Seifman’s own testimony and documented
proofs show Seifman paid his wife over $88,
000.00 out of the Law Firm’s IOLTA account;

App.46a
(Objection, RE 156, Page ID #3772; Seifman
dep., p. 154).
3.

Seifman admitted paying his and his wife’s
personal bills with Law Firm money when
Guzall was his partner; (Objection, RE 156,
Page ID #3830-3832, Exhibit 6). The agreements did not allow Seifman to pay his
wife’s dental bills with Firm money. (Objection, RE 156, Page ID #3755-3759, Exhibit
1). Seifman testified he did not tell Guzall
he wrote corporate checks to pay for his and
his wife’s personal bills. (Objection, RE 156,
Page ID #3817-3818, Ex. 4, p. 172 lines 7-8;
p. 173 lines 1-8; p. 174 line 2 to p. 176 line
19). Seifman’s failures to advise Guzall he
was paying his wife over $88,000.00 and his
wife’s bills with Firm monies were material
breaches of the agreements Seifman signed.
(Objection, RE 156, Page ID #3760-3789, Exhibit 2; Page ID #3802-3818, Exhibit 4; and
Page ID #3830-3859, Exhibit 6).

4.

Seifman’s keeping his claimed funds over
$200,000.00 within the Firm’s IOLTA account
over a period of several years was tax evasion
and Seifman’s conduct subjected the Firm,
Seifman, his wife and Guzall to Michigan
public policy violations and violations of
State and federal law. MRPC 1.15(a)(3); 18
U.S.C.A. § 371, 26 USCA 7201; MCL 205.27.

Here the Panel failed to apply settled Michigan
law and therefore it’s Opinion directly conflicts with
the cited Michigan Supreme Court, 6th Circuit and
U.S. Supreme court decisions. The Panel also claimed
the case law it relied upon “displaced the general

App.47a
rule”, however those cases do not include the words
“general rule”, and the Panel did not explain what it
meant by replacing a non-existent “general rule”,
thereby ruling in violation of and in direct conflict
with the cited law herein. Yet even assuming there is
a “general rule”, the 6th Circuit cannot “displace” a
Michigan general rule: Erie R. Co., supra, at 822; and
“ . . . it does not follow that courts may rewrite the
rule.” Shady Grove Orthopedic Assocs., P.A. v. Allstate
Ins. Co., 559 U.S. 393, 431, 130 S.Ct. 1431, 1456, 176
L.Ed.2d 311 (2010). Further “[f]ederal courts cannot
make state law.” Ram Int’l, Inc. v. ADT Sec. Servs.,
Inc., 555 F. App’x 493, 508 (6th Cir. 2014).
The trial court’s Hankins’ opinion does not include
the words “general rule”. To secure and maintain
uniformity, the Panel’s Opinion must be overturned
as there is no “general rule” to displace, and no
authority to do so even if such did exist.
II.

The Panel Has Improperly Rewritten Michigan
Law in Direct Contradiction with the Michigan
Supreme Court, 6th Circuit and U.S. Supreme
Court.

Federal court’s cannot alter or make Michigan
law (Ram, supra, at 507-508) and must apply Michigan
law: “Except in matters governed by the Federal
Constitution or by acts of Congress, the law to be
applied in any case is the law of the state. And whether
the law of the state shall be declared by its Legislature
in a statute or by its highest court in a decision is not
a matter of federal concern.” Erie R. Co., supra, at
822, emphasis. The Panel’s failure to apply Michigan
law and “displace the general rule” (Opinion at last

App.48a
full paragraph) where no general rule exists, therefore
directly conflicts with the cited decisions herein.
Here, Hankins’ possessed a contract with Seifman,
and upon Seifman filing his lien the court was required
to apply Michigan law. Michigan law is “[w]hether a
lien is authorized in a particular case is a question of
law.” Ypsilanti Charter Twp. v. Kircher, 281 Mich.
App. 251, 281, 761 N.W.2d 761, 780 (2008). The trial
court failed to abide by Michigan law in failing to
determine Seifman’s lien.
Furthermore, “Michigan law is settled: “‘He who
commits the first substantial breach of a contract
cannot maintain an action against the other contracting
party for failure to perform.”’ Chrysler Intern Corp v.
Cherokee Exp Co, 134 F.3d 738, 742 (CA 6 1998); see
also Flamm v. Scherer, 40 Mich. App. 1, 8; 198 N.W.2d
702, 706 (1972). The Panel failed to apply Michigan
law, as it failed to discuss let alone determine Seifman’s
substantial breaches with Guzall. Because the Panel
failed to apply settled Michigan law and has created
new Michigan law, it’s Opinion directly conflicts with
the 6th Circuit (Ram, supra, at 507-508) and U.S.
Supreme Court. Erie R. Co., supra, at 822.
Further, because Guzall had a property interest
in the monies he earned as contracted for in Hankins’,
Guzall’s due process rights were violated. Leary, supra,
at 741, and see; City of Pontiac Retired Employees
Ass’n, supra at 432. The trial court improperly allowed
Seifman to assert claims against Guzall in Hankins’
case and yet Guzall was deprived his right to assert
claims and defenses against Seifman to protect his
property interest. Because the court allowed only
Seifman to assert claims and deprived Guzall, Guzall’s
due process rights were violated.

App.49a
A. The Panel Improperly Rewrote Michigan
Contract Law.
The Michigan Supreme Court holds a court cannot
create ambiguity in a contract where none exists “we
will not create ambiguity where none exists.” Smith
v. Physicians Health Plan, Inc., 444 Mich. 743, 759,
514 N.W.2d 150, 157 (1994). Furthermore, “[a] court
cannot infer the parties’ “reasonable expectations” in
order to rewrite a clear and unambiguous contract.”
Westfield Ins. Co. v. Ken’s Serv., 295 Mich. App.
610, 615, 815 N.W.2d 786, 789 (2012). The Michigan
Supreme Court also holds “[w]e do not rewrite the
agreement of the parties under the guise of interpretation.” Vigil v. Badger Mut. Ins. Co., 363 Mich.
380, 383, 109 N.W.2d 793, 795 (1961). “Just as courts
are not to rewrite the express language of statutes, it
has long been the law in this state that courts are not
to rewrite the express terms of contracts.” McDonald v.
Farm Bureau Ins. Co., 480 Mich. 191, 199-200, 747
N.W.2d 811, 817 (2008).
Here the Panel rewrote Michigan law by creating
ambiguity where none existed, inferring the parties’
“reasonable expectations” to rewrite the clear and
unambiguous contract, and by rewriting the express
agreement under the guise of interpretation. Because
the Panel not only failed to apply Michigan law, but
has in effect rewritten Michigan law, the Panel’s
Opinion must be reversed as it also conflicts with the
U.S. Supreme Court; “[e]xcept in matters governed
by the Federal Constitution or by acts of Congress,
the law to be applied in any case is the law of the
state.” Erie R. Co., supra, at 822.

App.50a
B. The Panel’s Ruling that the “General Rule”
Was Displaced Pursuant to McCroskey and
Torpey Has Improperly Created New Michigan
Law.
The Panel relied upon McCroskey which entailed
an admission of a fee-splitting agreement “Defendant
also admitted that he told a previously departing
director that he felt that the fee-splitting arrangement
was valid and enforceable.” McCroskey, Feldman,
Cochrane & Brock, P.C. v. Waters, 197 Mich. App. 282,
285, 494 N.W.2d 826, 827 (1992). The Panel stated
“ . . . the fee-splitting agreement displaced the general
rule and remained in force after Guzall left the
Firm.” (Opinion, last full paragraph). Yet the Panel
failed to advise what the “general rule” is. At a minimum the Panel must articulate what the “general
rule” is, as the words “general rule” do not even exist
in the decisions of McCroskey, supra, or Torpey v.
Secrest, Wardle, Lynch, Hampton, Truex, Morley, PC,
No. 234956, 2003 WL 21958289, (Mich. Ct. App. Aug.
14, 2003), which are the two opinions the Panel
relied upon at its last paragraph.
The Panel cannot displace a “general rule” that
does not exist. Further, Michigan law is the opposite
of the Panel’s ruling as only the withdrawing attorney
(which was Seifman) can be paid an hourly rate for
services rendered. Ecclestone v. Ogne, 177 Mich. App.
74, 76 (1989)
There is no “general rule” cited within Ecclestone
nor within Reynolds v. Polen, 222 Mich. App. 20, 564
N.W.2d 467 (1997). There is no “general rule” cited
within Barth v. Fieger, which reiterated the law:
“[A]s long as a discharged attorney does not

App.51a
engage in disciplinable misconduct prejudicial
to the client’s case or conduct contrary to
public policy that would disqualify any quantum meruit award, a trial court should take
into consideration the nature of the services
rendered by an attorney before his discharge
and award attorney fees on a quantum meruit
basis.” Reynolds, 222 Mich. App at 27. However, “quantum meruit recovery of attorney
fees is barred when an attorney engages in
misconduct that results in representation
that falls below the standard required of an
attorney (e.g., disciplinable misconduct under
the Michigan Rules of Professional Conduct)
or when such recovery would otherwise be
contrary to public policy.” Id. at 26.” Barth v.
Fieger, No. 306078, 2013 WL 238532, at * 1
(Mich. Ct. App. Jan. 22, 2013), emphasis.
(Objection, RE 156, Page ID #3881).
“Plaintiffs first argue that the trial court abused
its discretion in failing to consider whether Fieger’s
alleged misconduct resulted in a forfeiture of the
Fieger firm’s lien interest. We agree.” Barth, supra, at
*1, emphasis. Pursuant to the Hankins’ court’s January
3, 2013 Order, the only issue before the Court was,
“ . . . whether Mr. Seifman should take any portion of
the fee under quantum meruit.” (Objection, RE 156,
Page ID #3863, Ex. 7, January 3, 2013 Order at para.
6, emphasis added illustrating Seifman). The scope of
that Order however, and subsequent “hearing” and
Report failed to adhere to Michigan law-which ispaying Seifman upon quantum meruit for his services
and requiring consideration of Seifman’s improper
and illegal acts. Here the court appropriately stated

App.52a
the law within its order (paying Seifman upon quantum
meruit), but then failed to apply the law (and then
paid Hankins’ attorney Guzall quantum meruit in
direct violation of Michigan law and the court’s own
order). The court also violated Michigan law by
improperly preventing testimony and proofs illustrating Seifman violated Michigan and Federal law,
Michigan public policy, and engaged in unprofessional
conduct.
Furthermore the law holds, “[a]n attorney may lose
his right to fees for unprofessional conduct. . . .” Rippey
v. Wilson, 280 Mich. 233, 245, 273 NW 552 (1937).
There is no “general rule” cited within Rippey. Michigan law must be followed and applied, however the
court refused to apply the law:
“Finally, the court of appeals distinguished
the Rippey case by observing that, although
Rippey awarded the attorneys a fee under
quantum meruit, the court still held that
“an attorney may lose his right to fees for
unprofessional conduct,” and the court reduced
the amount of attorney fees in that case to
cover only services that “produced definite
valuable results to plaintiff.” Idalski v. Crouse
Cartage Co, 229 F.Supp.2d 730, 741-742
(E.D. Mich. 2002).
Here the Panel improperly rewrote “the agreement
of the parties under the guise of interpretation”, (Vigil,
supra, at 383) as the agreement was not a fee-splitting
agreement, even as admitted by Seifman. Seifman
admitted there was no fee splitting agreement as there
was no exact method for dividing the fees in the event
of a shareholder leaving, “[w]hile the agreement
between Seifman and Guzall does not provide for an

App.53a
exact method for dividing fees in the event a shareholder leaves . . . ” (RE 110-1, Page ID #2418, lines 1213, Seifman’s Brief, p. 9, emphasis). Because Seifman
admitted there was no “ . . . exact method for dividing
fees in the event a shareholder leaves . . . ”, the court
improperly created new Michigan law in determining
the existence of a fee-splitting agreement in direct
opposition to Michigan law by going beyond the parties’
admitted intent and unlawfully rewriting the contract. Vigil, supra, at 383.
C. The Trial Court Did Not Rely Upon Torpey,
Supra, in Contradiction to the Panel’s
Intimation.
The Panel’s Opinion directly conflicts with the trial
court record stating the district court’s decision was
consistent with “Torpey ”. (Opinion, last full paragraph). The trial court did not rely upon Torpey, rightfully so, as Torpey, like McCroskey, supra, included an
actual fee-splitting agreement, unlike the “shareholder
agreement” in Hankins’ with no agreement of a feesplit upon departure as admitted by Seifman. (January 23, 2013 Transcript cited by trial court at P. 51
lines 8-25; RE 110-1, Page ID #2418, lines 12-13).
The Torpey facts are:
“If any time during the period ending two
(2) years after the Termination, the Employee,
Employee’s Firm or a Referral Attorney shall
undertake the representation of a Firm
Client, on an existing case, Employee shall,
within thirty (30) days after the Employee,
Employee’s Firm or a Referral Attorney has
collected any fees with respect to any matter
being handled for such Firm Client at the

App.54a
time of Termination, pay the corporation
50% of such fees.” Torpey, supra, at *1.
The Torpey case is opposite of the newly created
Panel law, as Torpey, supra, like McCroskey, supra,
included an actual admitted fee-splitting agreement
after departure. Here Seifman admitted there was no
agreement after departure, yet the Panel ruled there
was, in direct contradiction to the written contract
and facts thus improperly rewriting Michigan law.
D. The Panel Further Contradicted It’s Opinion
Citing to Kohl, Acknowledging that There Was
In Fact a Fee Splitting Agreement in Kohl, and
Yet in This Case There Was None-As Admitted
By Seifman.
The Panel also cited unpublished case Kohl, Harris,
Nolan & McCarthy, PC v. Peters, 2008 WL 183294

for support, in direct contradiction to Michigan law. In
Kohl, there was a fee-split agreement “ . . . Kohl’s feesplitting agreement . . . ”. Id., at *2. The Hankins’
court improperly attempted to “import” from Kohl,
supra, where no “import” is allowed as Michigan law is
clear in that Seifman’s claim rested upon his agreement
with Hankins, not Guzall, and the court could not
rewrite Seifman and Guzall’s contracts. The Panel has
improperly rewritten Michigan law to allow for an
“import” where no import is allowed directly conflicting
with the court decisions cited herein. Binding Michigan
law is:
“If an attorney’s employment is prematurely
terminated before completing services contracted for under a contingency fee agreement, the contingency fee agreement no longer
operates to determine the attorney’s fee and

App.55a
the attorney is entitled to compensation for
the reasonable value of his services on the
basis of quantum meruit, . . .”. Barth, supra,
at *1, emphasis, cites omitted. (Objection,
RE 156, Page ID #3881).
The facts in Barth are the same as Hankins’.
Seifman’s employment was “prematurely terminated”,
“the contingency fee agreement no longer operates to
determine the attorney’s fee and the attorney is entitled
to compensation for the reasonable value of his services
on the basis of quantum meruit”. Id. How Seifman’s
employment came to be terminated and whether it was
Guzall or another attorney who represented Hankins
thereafter are not determinative issues. Id. The trial
court ignored Michigan law and then feigned understanding the application of Michigan law stating “Mr.
Guzall claims that the R&R improperly “illustrates a
determination against Guzall and not as against Mr.
Hankins.” (Dkt. 156 at 9). The Court is unclear as to
Mr. Guzall’s exact argument, . . . ” Hankins v. City of
Inkster, No. 09-13395, 2018 WL 2228215, at *7 (E.D.
Mich. May 16, 2018), aff’d, No. 18-1645, 2019 WL
1312160 (6th Cir. Mar. 22, 2019). The Panel improperly
rewrote Michigan law by now allowing a Michigan
attorney to avoid application of Michigan lien and
contract law.
E. The 2nd Violation of the Court’s January 3,
2013 Order.
In determining Seifman’s claims against Guzall,
the court violated its own order by trying Seifman’s
Oakland County Lawsuit against Guzall “de facto”,
in direct contradiction to the Court’s own order Doc.
#132. (Objection, RE 156, Page ID #3868, Exhibit 8,

App.56a
p. 2-citing RE 155, Page ID #3713). The law holds,
“[a] trial court fails to follow the law of the case when
it revisits a matter on which this Court has already
ruled.” Schumacher v. Dep’t of Natural Resources,
275 Mich. App 121, 128; 737 N.W.2d 782 (2007). The
Panel cited “res judicata” under Section II at page 4,
but improperly only applied re-litigation upon Guzall
and not Seifman. The court therefore improperly
violated Michigan law by revisiting the matter upon
which it ruled, and could not by law allow Seifman to
re-litigate his claim and then prevent Guzall his
defenses or claims.
IV. The Panel’s Opinion Conflicts with a U.S. Supreme
Court Decision as to Jurisdiction.
Because the trial court maintained jurisdiction
over the disputed fee claim, Seifman withdrew his
State claim. The trial court record is deplete of any
evidence that there was an agreement between Seifman
and Guzall to determine a claim of Seifman against
Guzall in Federal Court, as the Federal Court already
maintained jurisdiction. Seifman’s filed lien in the
Hankins’ case acknowledged the federal court’s jurisdiction. He therefore withdrew his improper and
inconsequential State claim.
“This Court has repeatedly held that “the pendency
of an action in the state court is no bar to proceedings
concerning the same matter in the Federal court having
jurisdiction.” Exxon Mobil Corp, supra, 1526-27. Thus,
there could be no agreement to do that which was
already done, being the filing of Seifman’s lien to be
paid his portion of the fee he claimed within the Federal Court which already possessed jurisdiction. (Minute
Entry, RE 118, Page ID #2697).

App.57a
Yet further, Guzall and Seifman could not agree
to federal court jurisdiction where jurisdiction was
already maintained. Therefore even if the Panel could
point to an agreement regarding jurisdiction, such
would be inconsequential because the parties could
not agree to jurisdiction over the fee issue, as jurisdiction never left the Federal Court where Seifman
filed his lien. The Panel’s ruling that Guzall somehow
agreed to existing jurisdiction is not accurate and is
violative of the law:
A. The Panel’s Ruling that Guzall Was Afforded
the Opportunity to Litigate the Hankins’ Case
in State Court Is Incorrect and Violative of
the Facts and Law.
The Hankins’ case is separate from the litigation in Oakland County Circuit Court. (Motion, RE
118, Page ID #’s2682-2793). The Hankins v. Inkster
case before the court was not the ‘same matter’. The
State court could not bar or interfere in the Federal
Court proceedings. Exxon Mobil Corp, supra, 1526-27.
Further, the court was obligated to exercise its jurisdiction. Moses H. Cone Mem. Hosp. v. Mercury Const.
Corp., 460 U.S. 1, 15; 103 S.Ct. 927, 936; 74 L.Ed.2d
765 (1983).
“ . . . state courts are completely without
power to restrain federal-court proceedings
in in personam actions like the one here.
‘* * * where the jurisdiction of a court, and
the right of a plaintiff to prosecute his suit in
it, have once attached, that right cannot be
arrested or taken away by proceedings in
another court.” Donovan v. City of Dallas, 377
U.S. 408, 412-13; 84 S.Ct. 1579, 1 582 (1964).

App.58a
Thus Seifman’s claim against Guzall in State court
to obtain the same monies he claimed in Hankins’
case was inconsequential. Therefore the Panel’s ruling
also directly conflicts with Donovan, supra, at 41213. The Panel’s ruling also avoids application of
Seifman’s filed lien against Hankins. Seifman’s only
legal claim in Hankins’ case was against Hankins.
The court’s ruling that Guzall could agree to waive
the Federal court’s jurisdiction or a claim that he
could not have filed in State court (RE 159, Page ID
3992-3993) is inapposite of and directly conflicts with
the cited law and facts.
V.

Conclusion

Appellants’ request this Court resolve the cited
conflicts herein and overturn the Panel’s decision to
secure and maintain uniformity. The trial court must
be ordered to determine Seifman’s lien in accord with
Michigan law and analyze the evidence of Seifman’s
illegal acts and breaches. Appellants’ also request all
other relief deemed appropriate in their favor.
/s/ Raymond Guzall III
Raymond Guzall III
(P60980)
Attorney for Appellants’

